                                                      ~\.SEC&
                                                     uV-­  ~
                                                    ~
                                                    ~     1IIIII1~.t:
                                                        :-vrs~

                                        SOCIAL           SECURITY
                                        Office of the Inspector         General
MEMORANDUM
                                                                                        ICN         31220-23-195


       AUG.-8      2001                                                                 Refer       To:



To:
           Larry G. Massanari
           Acting Commissioner
            of Social Security

           Inspector General

Subject'
           Internal Controls Over the Office of Hearings and Appeals Interpreter Services
           (A-12-00-10023)


           The attached final report presents the results of our audit. Our objective was to assess
           the effectiveness of significant internal controls over the administration of interpreter
           services at the Office of Hearings and Appeals.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit at (410) 965-9700.



                                                                  J~[              ti           #




                                                     1-
                                                                  James    G. Huse,~




           Attachment
          OFFICE OF

   THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



  INTERNAL CONTROLS OVER THE
 OFFICE OF HEARINGS AND APPEALS
      INTERPRETER SERVICES

  August 2001     A-12-00-10023




AUDIT REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                    Executive Summary

OBJECTIVE
Our objective was to assess the effectiveness of significant internal controls over the
administration of interpreter services at the Office of Hearings and Appeals (OHA).

BACKGROUND

State Disability Determination Services make disability determinations under the
Disability Insurance and Supplemental Security Income programs. Claimants may
appeal the decision to Administrative Law Judges (ALJ) located at hearing offices (HO)
throughout the nation. The ALJ has the responsibility of considering any new evidence,
providing an opportunity for a hearing, applying the Social Security Administration (SSA)
disability standards, and providing a new decision, which affirms or reverses the lower
administrative disability decision. OHA administers the hearings and appeals program
for SSA.

OHA provides interpreter services at no cost to assist non-English speaking (NES)
claimants during the hearing process. HOs can obtain interpreter services from a
number of sources including: SSA employees, contracted interpreters, interpreters paid
by the claimant, community and advocacy groups, family members, or friends of the
claimant. Most of the interpreters OHA employs are hired from commercial vendors and
are paid by the HO. Most vendors provide a fee agreement to the HO, establishing the
rate charged for each language. OHA spent $1.9 million for interpreter services in
Fiscal Year (FY) 1999. This report discusses the interpreters hired by HOs.

In 1994, as a result of investigations and congressional hearings, legislation was
enacted to prevent recipients from improperly gaining access to program benefits
through “middlemen.” This legislation applied particularly to interpreters and medical
providers who provided inaccurate information through translations and/or coached
applicants on how to feign disabilities. SSA has taken several actions, both on its own
and in response to legislation, to improve controls over interpreter services. These
actions were intended to improve service to NES claimants and to substantially reduce
the potential for interpreter fraud.

OHA also has procedures to minimize the risk of conflict of interest, reduce fraud, and
ensure impartiality between the claimant and interpreter during a hearing. These
procedures require the ALJ to verify the interpreter’s identity and relationship to the
person testifying, and to instruct the interpreter to accurately translate the response of
the claimant during the hearing.

Interpreters hired by HOs also translate foreign language documents that are admitted
into evidence for consideration in the disability decision. OHA’s Hearings, Appeals and



Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                            i
Litigation Law Manual (HALLEX) requires that all admitted foreign language documents
be translated. Further, translators may only translate from original or certified copies of
documents—and must personally attest in writing—as to the accuracy of their
translation.

RESULTS OF REVIEW
OHA has adopted procedures to safeguard the integrity of interpreter services.
However, we determined that many of these procedures have not been effectively
implemented, resulting in inaccurate payments to interpreters and other control
weaknesses.

We reviewed a sample of payments to interpreters and the timesheets supporting those
payments from 8 of the 21 HOs with the greatest amount of expenditures for
interpreters. Numerous payments to commercial vendors were inadequately supported
due to missing information on timesheets. A timesheet serves as the key document that
HOs rely on to substantiate and issue payment. We identified the following six
attributes on a timesheet necessary to substantiate payment: (1) a record of the foreign
language in which the interpreter’s service was rendered; (2) the claimant’s name;
(3) the claimant’s Social Security number (SSN); (4) the interpreter’s signature; (5) a
record of the hours worked or date and time the hearing was held; and (6) a signature
from a presiding OHA official who authorized the hours worked.

In reviewing 64 sampled payments to interpreters, we found 37 payments made that
were based on improperly authorized timesheets. Projecting our results to the 21 HOs
in our sample population, we estimate that the dollar value of interpreter payments
containing at least one incorrect invoice is $451,000. We also determined that:

•	 three of the eight HOs reviewed did not have adequate internal controls over
   payments authorized for interpreter services;

•	 two HOs did not have written fee agreements from any of the vendors they
   employed;

•	 none of the eight HOs adequately reviewed the qualifications of interpreters before
   they were hired;

•   none of the eight HOs formally monitored the performance of interpreters;

•	 ALJs in the eight HOs did not fully administer an oath to interpreters, which obligates
   interpreters to accurately translate the hearing under penalty of perjury; and

•	 six of eight foreign language documents, containing mostly medical information
   submitted as evidence in the claimant’s file, were not translated or lacked the
   certifying signature attesting to the accuracy of the translation.



Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                             ii
CONCLUSIONS AND RECOMMENDATIONS
OHA needs to improve its oversight of foreign language interpreters. HOs have made
payments to vendors which are unsupported due to inadequate control over vendor
timesheets and invoices. Also, procedures for selecting and monitoring interpreters
need improvement and ALJs do not completely execute the oath to interpreters as
required. In addition, documents submitted as evidence by the claimant are not
translated and some translations are not certified attesting to their accuracy and
authenticity.

To strengthen the controls over interpreter services, we recommend that SSA:

•	 Standardize HO procedures to ensure that all payments are fully supported by
   adequate documentation to include: (a) a record of the foreign language in which
   the interpreter’s service was rendered; (b) the claimant’s name; (c) the claimant’s
   SSN; (d) the interpreter’s signature; (e) a record of the hours worked and/or date
   and time the hearing was held; and (f) a signature from a presiding OHA official who
   authorized the hours worked.

•	 Instruct HOs to require current and comprehensive fee agreements from each
   vendor to validate the accuracy of invoices before payments are made.

•	 Establish procedures in HALLEX similar to SSA’s existing procedures for screening
   interpreters, confirming their identities, and assessing their background and
   qualifications prior to hiring and assigning interpreters.

•	 Expand the Office of Quality Assurance and Performance Assessment’s (OQA)
   Disability Hearings Quality Review Process to include an assessment of the
   accuracy of the interpreter’s performance.

•   Remind all ALJs to fully administer the oath to interpreters.

•	 Instruct HOs to ensure that interpreters translate and certify all foreign language
   documents submitted as evidence for the claimant’s appeal.

AGENCY COMMENTS
In response to our draft report, SSA agreed with all but one of our recommendations.
Also, SSA established a workgroup to address improvements in services to individuals
with limited English language skills. This workgroup will address our recommendations
and expects to submit an implementation plan by October 2001. With regard to our
fourth recommendation, SSA noted that current program priorities and resources
preclude an additional workload in OQA. However, its workgroup will explore how OHA
might devise a program to evaluate interpreter services. (See Appendix C for SSA’s
comments.)



Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                        iii
OIG RESPONSE
Although SSA disagreed with our recommendation to expand OQA’s review process to
include an assessment of the accuracy of interpreter performance, SSA assigned its
workgroup the task of exploring how OHA can evaluate interpreter services. We await
the results of the workgroup and will reassess SSA’s actions after the workgroup has
made its recommendations.




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                      iv
                                                                      Table of Contents

                                                                                                                 Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 5


    Interpreter Timesheets ...................................................................................... 5


    •    Hours Worked.............................................................................................. 6

    •    Language Interpreted .................................................................................. 6

    •    Interpretation Rates ..................................................................................... 7

    •    Claim Identification ...................................................................................... 7


    Internal Controls in Hearing Offices .................................................................. 7


    Selecting and Monitoring Interpreter Services................................................... 8


    Monitoring Interpreter Performance ................................................................ 10


    Administering The Oath For Interpreter Services ............................................ 10


    Translating and Certifying Foreign Language Documents .............................. 12


CONCLUSIONS AND RECOMMENDATIONS .................................................... 14


APPENDICES

APPENDIX A – SSA’s Field Office and Regional Office Procedures
             for Selecting Interpreters

APPENDIX B – Sampling Methodology and Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)
                                                                    Acronyms

 ALJ                Administrative Law Judge

 CTS                Central Translation Service

 DDS                Disability Determination Services

 DHQRP              Disability Hearing Quality Review Process

 FO                 Field Office

 FY                 Fiscal Year

 HALLEX             Hearings, Appeals and Litigation Law Manual

 HO                 Hearing Office

 HOD                Hearing Office Director

 NES                non-English speaking

 OHA                Office of Hearings and Appeals

 OQA                Office of Quality Assurance and Performance Assessment

 PO                 Purchase Order

 RO                 Regional Office

 SSA                Social Security Administration

 SSI                Supplemental Security Income

 SSN                Social Security number





Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)
                                                                        Introduction

OBJECTIVE
Our objective was to assess the effectiveness of significant internal controls over the
administration of interpreter services at the Office of Hearings and Appeals (OHA).

BACKGROUND
State Disability Determination Services (DDS) make disability determinations under the
Disability Insurance and Supplemental Security Income (SSI) programs. Claimants may
appeal the DDS decision to Administrative Law Judges (ALJ) located at hearing offices
(HO) throughout the nation. An ALJ’s responsibilities include considering any new
evidence, providing an opportunity for a hearing, applying the Social Security
Administration’s (SSA) disability standards, and providing a new decision, which affirms
or reverses the DDS’ determination. OHA administers the hearings and appeals
program for SSA.

OHA provides interpreter services at no cost to assist non-English speaking (NES)
claimants who have difficulty understanding or communicating in English during any
part of the hearing process. HOs obtain interpreter services from a number of sources
including: SSA employees, contracted interpreters, interpreters paid by the claimant,
community and advocacy groups, family members, or friends of the claimant. Most of
the interpreters OHA employs are hired from commercial interpreting vendors and are
paid by each HO. Most vendors provide a fee agreement to the HO establishing the
rate charged for each language. This report discusses the interpreters hired by HOs.1

                          During a hearing, the claimant, witnesses (may include a
Steps to Reduce           medical expert and/or a vocational expert) and the interpreter
Fraud and Abuse by        give testimony under oath. The claimant’s representative,
Interpreters              usually an attorney, presents the basis for the claimant’s
                          appeal. The interpreter must accurately interpret each word
spoken during the hearing from English to the foreign language for the claimant and, as
the claimant answers, the interpreter listens and renders the English version. The
interpretation is included in the official record of the hearing and may serve as evidence
for any further appeal of the ALJ’s decision.




1
 OHA does not collect data on interpreter services. We were able to get data on commercial interpreter
services paid by SSA by taking a sample of invoices retained by SSA's Office of Finance. The number of
hearings involving the use of unpaid interpreters is not known.


Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                                    1
In 1994—following investigations and congressional hearings2—the Social Security
Independence and Program Improvements Act of 19943 was enacted to prevent
recipients from improperly gaining access to program benefits through “middlemen.”
This law applied to interpreters and medical providers who provided inaccurate
information through translations and/or coached applicants on how to feign disabilities.
SSA has taken several actions, both on its own and in response to legislation, to
improve controls over interpreter services. These actions were intended to improve
service to NES claimants and to substantially reduce the potential for interpreter fraud.

CONTROLS OVER INTERPRETER SERVICES

Since 1993, SSA has hired over 2,3004 bilingual employees to provide better service for
NES claimants across program lines. Commercial interpreters hired by SSA are
certified through an extensive authorization process, which requires verification of the
interpreter’s identity and a thorough review of his/her qualifications. After the
authorization process, non-SSA interpreters are placed on SSA’s official translation
rosters and only those who are on the roster can be hired. In addition to these policies,
SSA implemented extensive changes to verify the identity and professional background
of the interpreter. The policies are described in Appendix A.

OHA also has procedures to minimize the risk of conflict of interest, reduce fraud, and
ensure impartiality between the claimant and interpreter during a hearing. These
procedures require the ALJ to swear in the interpreter, affirm the interpreter’s identity,
affirm the interpreter’s relationship to the person testifying, and instruct the interpreter to
accurately translate the response of the claimant during the hearing. If the interpreter
refuses to provide the required certification, or the ALJ doubts the interpreter’s
qualifications or suspects fraudulent activity, the ALJ must adjourn or postpone the
hearing until the services of an acceptable interpreter are obtained. Interpreters hired
by HOs also translate foreign language documents that are admitted into evidence for
consideration in the disability decision. OHA’s procedures require that all admitted
foreign language documents be translated. To ensure authenticity, interpreters may
only translate from original or certified copies of documents, and the interpreters must
personally attest in writing, as to the accuracy of their translation.

PAYMENTS TO INTERPRETERS

OHA spent $1.9 million for interpreter services in Fiscal Year (FY) 1999. A designated
official in each HO has authority to issue payments to interpreters. SSA’s payment
procedures require that an original invoice, and/or an equivalent supporting document


2
  On February 24, 1994, the Subcommittee on Oversight and the Subcommittee on Human Resources,
House Committee on Ways and Means, held a joint hearing to review the problem of middleman fraud in
the SSI program and to consider possible legislative and administrative solutions.
3
    Public Law No. 103-296
4
    These employees are located in field offices and teleservice centers.


Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                                     2
itemizing the services purchased, support each payment. HOs rely on timesheets, or
invoices summarizing timesheets, to support payments.

HOURLY FEES AND TIMESHEETS

OHA does not have a uniform method for paying interpreters, but rather lets each HO
determine its own payment method. HOs pay interpreters either an hourly rate or a flat
fee for their service. The fees vary among HOs due to different geographic areas,
market conditions, and the language spoken. The amount paid for the use of an
interpreter at a HO can vary depending upon which interpreter service is used. Fees
are set by the interpreter service and agreed to by the HO. The fee agreement ensures
that the HO is not arbitrarily overcharged for interpreter services and is used to
substantiate the rate of payment for any given service.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

•	 Randomly selected 8 HOs from the 21 HOs with the highest expenditures for
   interpreter services in FY 1999 (see Appendix B, for details of our sampling
   methodology). The expenditures for interpreter services in the 21 HOs were
   $1,158,466, which comprises 60 percent of OHA expenditures for interpreter
   services for that year. From the 8 HOs, we reviewed a random sample of
   64 payments containing 296 timesheets (totaling $42,646) that were issued to
   interpreters. These timesheets contain the underlying information that substantiates
   payments. The eight HOs selected were: Bronx, New York; Detroit, Michigan;
   Fresno, California; Los Angeles (Downtown), California; Los Angeles (West),
   California; Miami, Florida; Newark, New Jersey; and Queens, New York.

•	 Reviewed all the timesheets for the following attributes that should be recorded in
   order to provide a reliable record of the interpreter’s assignment in the HO, and to
   adequately substantiate payment:

       a record of the foreign language in which the interpreter’s service was rendered
       so that the correct rate for the language can be charged after a hearing;

       the claimant’s name to substantiate for whom the service was provided;

       the claimant’s Social Security number (SSN) to substantiate for whom the service
       was provided;

       the interpreter’s signature so that OHA has a record and certification of who
       performed the service;

       the recording of time in and out, if necessary, or the start time of a hearing for
       those HOs that pay per hearing to ensure correct payment; and


Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                           3
       a signature from a presiding OHA official who attests to the presence and, if
       required, the length of time the interpreter worked that day in the HO.

•	 Created a data base of 330 claimants from the timesheets indicating an interpreter
   was present at an OHA hearing during FY 1999. We then reviewed the first 30 case
   files we received of the 100 randomly sampled cases from the data base. We
   reviewed the tape recording of the hearing and any foreign language documents
   submitted as evidence in the claims folder.

       Listened to audio cassettes of 30 hearings from the 30 claimants selected in the
       random sample to ensure that the ALJ: (a) verified the interpreter’s identity;
       (b) certified the interpreter’s relationship to the claimant; and (c) told the
       interpreter that they must accurately translate all questions and answers.

       Reviewed the 30 claimants’ case folders to ensure that: (a) all documents were
       translated, (b) the translation in the file was of the original or a certified copy; and
       (c) the translation was signed by the interpreter.

•	 Interviewed OHA staff in eight HOs and OHA Headquarters on policies and
   procedures for interpreter services.

•	 Reviewed SSA’s Program Operations Manual System and OHA’s Hearings, Appeals
   and Litigation Law Manual (HALLEX)5 policies relevant to interpreters.

We conducted our field work between November 1999 and December 2000 in
Falls Church, Virginia and Baltimore, Maryland. The entity audited was OHA under the
Deputy Commissioner for Disability and Income Security Programs. We conducted our
audit in accordance with generally accepted government auditing standards.




5
 HALLEX communicates OHA guiding principles and procedures to ALJs, Administrative Appeals Judges
and OHA support staff.


Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                               4
                                                         Results of Review

OHA has procedures that are intended to minimize the risk of conflict of interest, reduce
fraud, ensure the reliability of translations, and confirm the accuracy of vendor
payments. However, many of the internal controls to safeguard interpreter services
have not been effectively implemented. Timesheets which support payments to
vendors for interpreter services were missing key information such as hours worked and
certification of hours. As a result of these and other problems, we estimate that
$451,000 in payments to interpreters were not fully supported (see Appendix B).
Controls over the original timesheets reviewed were inadequate in three of the eight
HOs. OHA did not have uniform procedures for the selection of interpreters, for
monitoring interpreter performance or for administering the oath. Translation and
certification of foreign language documents were not always done as required by
HALLEX.

INTERPRETER TIMESHEETS

                          Numerous timesheets supporting vendor payments lacked
Timesheet
                          fundamental information. Timesheets either record the
Information Needed
                          interpreter’s individual hours worked in a “time in or out”
to Ensure Accurate
                          section, or the “start time” of a hearing is recorded. In either
Payment
                          case it is essential that an OHA employee certify the
                          interpreter’s recorded hours or start time by signing each
timesheet once the service has been performed. This confirms the accuracy of the
hours charged and ensures that the vendors, who base their invoice on the timesheet,
do not overcharge for services.

The process for approving vendor invoices varied among the eight HOs that we
reviewed. Five of the eight HOs paid the vendor based on an invoice received from the
vendor with the original timesheets or copies attached. Two HOs paid the vendor
directly without being billed, based on timesheets that the HO retained. The final HO
did not have a policy that vendors use timesheets, instead it tracked payments to
vendors with Purchase Order (PO) numbers.

When using interpreters paid by the hour, five of the eight HOs documented their time
using the “time in and time out” section of the timesheet. These timesheets were
supporting documents that HOs relied on to substantiate payments to vendors. The
timesheets were not standardized and OHA had no established guidelines as to the
type of information to be recorded on them.

For HOs that paid a flat fee per hearing, the start time of the hearing was recorded and
then certified on the timesheets by a HO staff member. Whether the hours were
recorded on the timesheets by a HO employee or the interpreter, a HO staff member
was required to certify the accuracy of the recorded hours or start time in seven of the
eight HOs.


Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                            5
Hours Worked

For the eight HOs in our sample, 35.9 percent of the HOs’ payments had at least one
timesheet that did not show the actual hours worked or were missing HO employee
certification of the hours worked. These payments were valued at $8,061. Timesheets
valued at $1,570 were missing both the “time in or out” and certification of the hours
worked.

Despite the absence of the hours worked or certification of hours, the HOs paid the full
amount contained on the invoice submitted by the vendor. The HOs provided varying
reasons as to why they process payments for the full value of the invoice despite
missing information on the timesheets.

Two of the eight HOs reviewed do not require certification of “time in and out” or start
time and believe it is not necessary to do so. At another HO, the manager said that he
was unaware of missing information on timesheets. Three HOs stated that when
information is missing they review the case folder before making payment to verify the
invoice against the time recorded in the folder, but do not correct the timesheets. Two
HOs had all of the hours worked and certification information recorded accurately. The
potential for errors exist in processing timesheets when there is no record of the service
performed or no oversight of hours claimed. Certification by an OHA employee who can
verify that the service occurred as recorded serves as a basic control, and if consistently
applied, ensures hours claimed are accurate before payments are issued.

Language Interpreted

The language in which the service was performed was identified on the majority of the
timesheets. However, we found that two HOs do not have any written fee agreements
for the rates of pay per language per hour, and three HOs do not have fee agreements
from all the vendors they employ. When written fee agreements from the vendor are
missing, the HO cannot substantiate language rates per hour once an invoice has been
submitted. Compensation rates should be explained and established before service is
rendered and each vendor should provide the HO with written fee agreements. The
amount of dollars spent on interpreter services in the two HOs where there was no fee
agreement was $196,786. When we spoke to those HO representatives that had
incomplete fee agreements (or none at all) regarding this matter, we were told that they
had an “understanding” of the accepted translation rate for each language and,
therefore, did not require fee agreements. However, one Hearing Office Director (HOD)
stated that she was currently updating the incomplete fee agreement because some
interpreters had arbitrarily raised the amount charged after the service had been
rendered. As a result, the HOD had no choice but to pay the higher price since there
was no written agreement.




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                          6
Interpretation Rates

We also found discrepancies between the rates charged by the vendors and the rates
contained in the written fee agreements. For example, a HO paid $375 to a vendor for
three hours of Spanish translation—a rate of $125 per hour. Yet the rate for Spanish
translations contained in the fee agreement was only $95 an hour, resulting in a
$90 overpayment to the vendor. Reviewing the accuracy of the hourly translation rates
against the written fee agreement would prevent payment errors of this type.

Claim Identification

We also found that some HOs processed payments to vendors that lacked both the
name and SSN of the claimant on whose behalf the interpreter served. Fourteen
percent of the payments sampled had at least one timesheet that was missing the
claimant name and SSN—which are important identifying information for use by the HO
in confirming the authenticity of the charges. Due to this lack of information, we were
unable to confirm the accuracy of $1,990 in payments to interpreters.

INTERNAL CONTROLS IN HEARING OFFICES

Internal controls over interpreter payments in three of the eight HOs were inadequate.
Timesheets were not reconciled to records retained in the HO, creating a situation
where there was a lack of authorization and oversight over the information contained in
them. The General Accounting Office’s “Standards for Internal Controls in the Federal
Government”6 require that all transactions need to be clearly documented from initiation
to authorization to ensure accountability and to help reduce the risk of errors, misuse or
unauthorized alteration.

                          In the first HO, once a hearing was completed the interpreter
HO’s Control over         left with the original timesheet and the HO retained a copy.
Original Timesheets       The interpreter gave the original timesheet to the vendor for
                          whom they worked and the vendor sent an invoice based on
the timesheet requesting payment. However, the HO did not match the original
timesheet submitted with the invoice to the copy the HO retained prior to making
payment.

Since the original timesheet was taken out of the HO, and, in some cases not returned
for a number of weeks, timesheets could be altered to the detriment of the HO. If this
HO retained the original timesheet and gave the interpreter a copy, it could compare the
original to the copy once it was submitted with the invoice. This would guard against
incorrect adjustments and help reduce the risk of unauthorized alteration. This HO
spent $128,474 in 1999 on interpreter services.

In the second HO, the HO personnel verbally instructed interpreters to give the
receptionist the original timesheet before leaving. This procedure was in place so that a
6
    GAO/AIMD-00-21.3.1, November 1999


Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                         7
copy could be made for the interpreter to give to the vendor, while the original was
retained in the HO. However, the HOD stated that there were many instances when the
interpreter left with the original timesheet before the HO could make a copy. Without a
copy or an original timesheet retained, the HO had no control over key aspects of the
service performed. The timesheets are the principal means of assuring the validity of
the transaction for payment. The HO needs to have control over timesheets and
develop procedures to ensure that the original is maintained in the HO for comparison
to the vendor’s invoice before payment is made.

In the third HO, procedures did not require a presiding OHA employee to validate the
hours that the interpreter worked. Timesheets were not required and hours worked
were not certified. Instead, at the time an interpreter service was requested, a cashier
assigned a PO number to the interpreter’s future assignment and this PO number was
given to the vendor to record on their request for payment. Once the PO number was
assigned, the cashier input an estimate of the cost of the future service into a data base
management system that records estimated and actual expenditures in the HO for
financial tracking and reporting purposes. This HO did not have a complete fee
agreement, so they relied on the vendor to set the fee and tell the HO the rate per
language.

Once an interpreter arrived for an assignment in this HO, the HO had no control over
the transactions performed except to have assigned a PO number to track the invoice.
If there was a difference between the estimated charges recorded earlier in the data
base and the actual charges submitted several weeks later on the invoice, the HO
cashier adjusted the difference to coincide with the charges on the invoice submitted by
the vendor. The HO had no internal controls over the accuracy of the charges or
oversight of the service performed. Using timesheets and requiring that they be
certified would allow the HO to maintain oversight of the service performed.

SELECTING AND MONITORING INTERPRETER SERVICES

To qualify as an interpreter, both SSA’s and OHA’s written procedures require that
individuals demonstrate fluency in English and the foreign language of the claimant and
have some familiarity with basic SSA terminology. Further, the interpreter must agree
to comply with SSA’s disclosure and confidentiality of information requirements, act in
the best interest of both the claimant and the public-at-large, and provide an exact
translation of the claimant’s responses.

                           In addition to these basic procedures, SSA’s Division of
SSA’s Procedures           Eligibility and Enumeration Policy under the Office of
for Field Staff Hiring     Disability and Income Security Programs developed
of Interpreters            procedures for field staff when hiring interpreters. Non-SSA
                           interpreters go through an extensive authorization process
and the field office (FO) must contact the employer or previous employer or other
sources in the community with knowledge of the candidate's ability to verify their
experience. The regional office (RO) conducts an additional level of review of the



Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                         8
candidate’s background, and if the RO approves the candidate, official translator
signature cards are issued which must be presented as a form of identification and
compared with a copy that the FO retains before each assignment. However, these
procedures used by the ROs and FOs have not been adopted by OHA.

At OHA, commercial vendors provide most of the interpreter services and the task of
locating interpreters is left up to each HO. We asked the HODs how they recruited
interpreters, ascertained the language proficiency of the interpreters, and whether they
confirmed the identity of the interpreter before entering the hearing room. Four of the
eight HODs responded that they required a letter or a resume from the interpreters
before they were hired, which they or the Hearing Office Chief Administrative Law
Judge reviewed. The remaining four did not require this. Further, none of the HOs
conducted face-to-face interviews with prospective interpreters. They also did not verify
previous employment, nor confirm the interpreter’s identity before admittance into the
hearing room. All eight HOs stated that they relied on the vendor to establish the
qualifications and identity of the individual interpreter.

Commercial interpreting agencies seldom rigorously test the interpreters whom they
place on their lists.7 OHA introduces interpreters into the hearing room with no prior
determination of language skills and/or identifying information. Nonetheless, these
HODs stated they are successful at maintaining a cadre of qualified interpreters through
“experience,” which in most cases have been established over many years.

The consequence of not adequately screening the qualifications of the interpreters was
also well known in the HOs. HODs from six of the eight HOs stated that they witnessed
an ALJ or attorney stop a hearing at least once because they believed an interpreter
lacked the skills to perform. The ALJ or attorney drew this conclusion only because
they were familiar with the language being translated. It is not known how often poor
translations are conducted in hearings where neither the ALJ, nor other individuals
present were familiar with the translated language.

If the HO assessed the background of the prospective interpreter through a structured
interview process, the HO would be able to establish the interpreter’s identity, language
proficiency, education, and professional background. The interviewer must be satisfied
that the candidate’s English comprehension and verbal skills are at a level
commensurate with the demands of the court, prior to the hearing.8 The interview
would provide information for the HO to assess interpreters and provide background
information to qualify them to serve in the hearing.




7
    As indicated in Fundamentals of Court Interpretation: Theory, Policy and Practice, 1991.
8
  For example, to assist bilingual training for OHA employees, a work group is developing OHA specific
terminology to include in SSA’s Spanish Glossary and this information could also assist new interpreters.


Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                                           9
MONITORING INTERPRETER PERFORMANCE

OHA’s only monitoring of interpreters’ performance occurs in those situations where a
HO employee has some familiarity with the language spoken at the hearing. As of
November 2000, OHA did not operate a formal quality assurance review of the
interpreter’s performance. The need for an effective quality assurance function in an
adjudicative setting, such as an OHA hearing, is high since the process is subject to
discretion and judgment. Given the discretion available to the ALJs in reaching their
decisions and historical concerns over translator fraud, increased oversight over
interpreter’s performance is warranted. A formalized quality assurance process would
confirm the accuracy of interpretations and address errors or omissions in translations.

OHA currently undergoes extensive review as part of the Disability Hearing Quality
Review Process (DHQRP) conducted by the Office of Quality Assurance and
Performance Assessment (OQA). The DHQRP is a peer review performed by
participating ALJs who serve as Reviewing Judges. Reviewing Judges evaluate ALJ
decisions and assess significant issues of law, policy, and procedures in the hearings
decision process. In reviewing cases, they do not assess the accuracy of interpreter’s
services during hearings or in translating documents. OHA, however, does maintain
tape recordings of all hearings. In a manner similar to the peer review by the Reviewing
Judges, OQA could utilize other interpreters to systematically monitor a sample of
hearings as part of the DHQRP. If OQA’s review of interpreter services finds
questionable interpretations with evidence of potential fraud, such cases should be
referred to SSA’s Office of the Inspector General for investigation.

The use of a third party interpreter to validate the reliability of the interpretation would
improve oversight of interpreter performance. These independent interpreters would
help OHA determine whether individuals are entitled to benefits. While the individual
payments to interpreters are small, the greater risk to SSA is the potential for adding
new beneficiaries to the disability program based on inaccurate or fraudulent
interpretations. This cost to the taxpayer could be huge, since the average annual
disability benefit payment is $9,060 and beneficiaries can receive payments for many
years.

ADMINISTERING THE OATH FOR INTERPRETER SERVICES

                              At the beginning of a hearing, the ALJ administers an oath
 ALJs’ Administration         to those present, including the interpreter. The claimant,
 of Oath to Interpreters      witnesses, and interpreter then proceed to give testimony.
                              HALLEX I-2-610 requires that the ALJ verify the
                              interpreter’s identity and require the interpreter to certify
“under the penalty of perjury” his or her relationship to the person testifying and that he
or she will accurately translate the questions asked and answers given to the best of
his or her ability. ALJs may obtain the required certification on the record at the
hearing or in writing. Whichever medium is chosen, HALLEX I-2-610 stipulates that the
required certification include the following information:



Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                              10
•	 I am acting as an interpreter for (claimant’s name) to perform the specific
   function of providing accurate translation between (claimant’s name) and the
   ALJ. I solemnly (swear or affirm) that I will accurately translate the questions
   asked and the answers given in this case to the best of my ability, under
   penalty of perjury.

•   The interpreter’s name, address and telephone number.

•	 The interpreter’s relationship to the claimant (e.g., son, mother, friend, minister, paid
   interpreter, or legal representative). (This information is needed because any
   condition that interferes with the objectivity of an interpreter constitutes a conflict of
   interest and should be made known to the ALJ).

•   Any relevant comments that the interpreter wishes to include.

•	 Any relevant comments that the ALJ wishes to document over the interpreter’s
   signature.

•   The interpreter’s signature.

If the interpreter refuses to provide any of the required certification, or the ALJ doubts
an interpreter’s qualifications or suspects fraudulent activity, the ALJ is to adjourn or
postpone the hearing until the services of an acceptable interpreter are obtained.

We reviewed 30 tape recordings of hearings where interpreters were present and
reviewed the claimants’ case folders of the same tape-recorded hearings.

We found that:

•	 All of the oaths administered by the ALJs were on the tape-recordings made at the
   hearings. Although all but one of the ALJs swore in the interpreters, none of the
   ALJs stated for the record the full body of text required in HALLEX.

•	 ALJs asked the interpreters to state their name for the record in 22 hearings, while in
   the remaining 8 hearings ALJs did not ask the interpreters to identify themselves.

•	 At 25 of the 30 hearings, ALJs did not ask the interpreter to clarify his or her
   relationship to the claimant for the record.

•   Only two ALJs told the interpreters to translate verbatim.

It is important that the ALJs administer the oath in full, given the extent to which the
integrity of the translation process relies upon the character and ethics of its
interpreters. When the interpreters certify under oath to perform to the “best of their
abilities,” the obligation they have entered into is critical to the hearing process. They


Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                            11
must assure due process by preserving the level of language used without imposing
any editorial emphasis, refrain from disclosing any confidential information, and avoid
conflicts of interest, or the appearance thereof. Further, interpreters must not give any
legal advice, unless they are also serving as the claimant’s representative.

The importance of administering the oath properly is compounded further by the
practice of performing minimal reviews of the backgrounds and qualifications of OHA’s
cadre of interpreters. By swearing or affirming under the “penalty of perjury” to perform
to the best of their ability, the oath and certification serve as a critical deterrent to
interpreter fraud. Similarly, the tape recorded or written evidence of the completed oath
provides important evidence to law enforcement and court officials for use in the
investigation and prosecution of suspected fraud against SSA.

TRANSLATING AND CERTIFYING FOREIGN LANGUAGE DOCUMENTS

OHA requires that all foreign language documents submitted to substantiate a claim
must be translated prior to the hearing. SSA’s Central Translation Service (CTS)
translated approximately 29,000 foreign language documents in FY 1999, of which 116
were submitted by OHA. In addition to those that CTS translates, HOs also send
documents to outside vendors. OHA does not keep data on the number of documents
translated by outside vendors, but the cost for translation is a part of the overall amount
spent on interpreter vendor services. Documents that are translated at the hearing level
into English include the claimant’s own description of his or her physical or mental
impairments; medical records; psychiatric case histories; laboratory findings; application
forms; instructions; form letters; birth, death, and marriage certificates; and financial
affidavits. The standard of accuracy is the same for translated documents as it is for
interpreting the proceedings of a hearing.

Every translation entered into evidence at the hearing level requires that the interpreter
preserve the meaning, style, and form of the original document. OHA requires that all
foreign language documents are translated and that the document on which the
translation is based consists of the original document or a notarized copy. OHA also
requires that translators validate their work by signing the translation—attesting that it is
a true and correct translation of the original. The original document and the translation
must be exhibited side by side, so that there can be no question about what is being
translated.

Of the eight foreign documents we found in our sample, six did not meet the
requirements stipulated in HALLEX. We found:

•	 A foreign language document containing medical information with a letter attached
   attesting to the accuracy of the translation; however, the interpreter did not sign the
   letter and the actual translation was missing.

•	 A foreign language document containing medical information had been certified as
   an official copy, but was not translated in its entirety.



Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                          12
•	 A foreign language document containing medical information was translated but was
   not certified as an original or copy of the original, nor did the translator sign the
   translation.

•	 An SSA reconsideration disability report containing medical information was not
   translated in its entirety.

•	 Two foreign language documents containing medical information, and a notarized
   statement regarding an incorrect date on a birth certificate were not translated and
   not certified as the original or as copies of the original documents.

We referred these six cases to OHA management to determine why some of the
procedures required by HALLEX were not followed, and the effect, if any on the
outcome of the hearing. Five of the cases whose outcome was an unfavorable decision
were from the same HO and OHA management responded that HALLEX procedures do
require that an authorized interpreter translate all foreign language documents
necessary for the development of a claim. However, OHA stated that there are
occasions when certain information is not relevant to the outcome of a case, and these
foreign language documents may not be sent for authorized translation. In these
situations, employees familiar with the language are consulted to ensure that the
documents are not relevant to the case. OHA also stated that if there were any
evidence that was not properly translated, OHA would make every effort to ensure that
this does not happen in the future. The sixth case involved a favorable decision. HO
management responded that HALLEX had been followed, but agreed that the quality of
the translation was poor, and that HALLEX criteria for a Qualified Foreign Language
interpreter does not include proficiency. We continue to believe that HOs should follow
HALLEX procedures and translate all documents in their entirety and have them
certified by the translator.




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                         13
                                                       Conclusions and
                                                       Recommendations
OHA’s controls over interpreter services are intended to minimize the risk of conflict of
interest, ensure the reliability of translations, and confirm the accuracy of vendor
payments. However, many of the controls have not been effectively implemented.
Timesheets which support payments to vendors for interpreter services were missing
key information such as hours worked and certification of hours. As a result, we
estimate that $451,000 in interpreter payments were not fully supported. Controls over
timesheets were inadequate in three HOs. OHA did not have procedures for selecting
interpreters or monitoring interpreter performance. The translation and certification of
foreign language documents did not meet the requirements in HALLEX I-2-576.

To strengthen the controls over interpreter services, we recommend that SSA:

1. 	 Standardize HO procedures to ensure that all payments are fully supported by
     adequate documentation to include: (a) a record of the foreign language in which
     the interpreter’s service was rendered; (b) the claimant’s name; (c) the claimant’s
     SSN; (d) the interpreter’s signature; (e) a record of the hours worked and/or date
     and time the hearing was held; and (f) a signature from a presiding OHA official who
     authorized the hours worked.

2. 	 Instruct HOs to require current and comprehensive fee agreements from each
     vendor to validate the accuracy of invoices before payments are made.

3. 	 Establish procedures in HALLEX similar to SSA’s existing procedures for screening
     interpreters, confirming their identities, and assessing their background and
     qualifications prior to hiring and assigning interpreters.

4. 	 Expand OQA’s DHQRP to include an assessment of the accuracy of the interpreter’s
     performance.

5. Remind all ALJs to fully administer the oath to interpreters.

6. 	 Instruct HOs to ensure that interpreters translate and certify all foreign language
     documents submitted as evidence for the claimant’s appeal.

AGENCY COMMENTS
In response to our draft report, SSA agreed with all but one of our recommendations.
Specifically, SSA agreed to: (1) develop a preformatted timesheet; (2) have a
workgroup address interpreter fee agreements; (3) tighten controls over the selection of
interpreters; (4) issue a reminder to all ALJs to administer oaths fully; and (5) issue a
reminder to HOs to ensure that interpreters comply with procedures governing the


Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                          14
translation of foreign language documents. Further, SSA established a workgroup to
address improvements in services to individuals with limited English language skills.
This workgroup will address our recommendations and expects to submit an
implementation plan by October 2001.

With regard to our fourth recommendation, SSA noted that current program priorities
and resources preclude an additional workload in OQA. However, its workgroup will
explore how OHA might devise a program to evaluate interpreter services.

OIG RESPONSE
Although SSA disagreed with our recommendation to expand OQA’s review process to
include an assessment of the accuracy of interpreter performance, SSA assigned its
workgroup the task of exploring how OHA can evaluate interpreter services. We await
the results of the workgroup and will reassess SSA’s actions after the workgroup has
made its recommendations.




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                       15
                                               Appendices





Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)
                                                                        Appendix A

SSA’s Field Office and Regional Office
Procedures for Selecting Interpreters
The following procedures are to be followed when authorizing a non-SSA translator
according to SSA’s Program Operations Manual System GN 00301.350.
All non-SSA translator candidates are to translate verbatim and submit a statement
of qualifications. The field office (FO) does not rely on oral representations made by
the candidates.
•	 The FO must contact the employer, previous employer, or other sources in the
   community with knowledge of the candidate's ability to verify their experience.
   The FO Manager forwards a memorandum to the regional office (RO) setting out
   the basis for the recommendation. The recommendation is reviewed and, if
   approved by the RO, is certified and returned to the FO.
•	 Two copies of the Official Translators' Signature Card are completed specifying
   the name of the school, prior translation experience, and native language ability.
   Both FO staff and the candidate sign the card. The FO retains one copy and the
   translator must present the other as a form of identification.

•	 The non-SSA translator is then placed on an official list of approved translators and
   that list is accessible to SSA employees.

FO managers must also advise all non-SSA translators at the point of initial
authorization that all information submitted to them for translation is confidential and not
to be disclosed.




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)
                                                                            Appendix B

Sampling Methodology and Results
From SSA we obtained an extract of all payments issued in Fiscal Year (FY) 1999 from
the Financial Accounting Control System that had a Common Account Number
beginning with 400 and a Sub-Object Class of 252A, which identifies payment to
interpreters. This extract resulted in a file containing 6,775 payments from 128 hearing
offices (HO) totaling $2,240,336. Not all HOs used interpreter services and six
temporary HOs were no longer in existence after completion of reviews mandated by
the Welfare Reform legislation of 1996. From our population, we then removed
511 payments totaling $334,425 issued in conjunction with Welfare Reform reviews.
This left a data file totaling $1,905,911 for 6,264 payments made by 122 HOs.

We then sorted the file by HO and by total payments made. We found that 21 HOs
issued 3,069 of the 6,264 payments (49 percent) and accounted for $1,158,466 of the
$1,905,911 (61 percent) spent for interpreter services.

Since 21 HOs comprised 61 percent of the $1.9 million spent, we decided to limit our
review to these 21 HOs. Of these 21 HOs, we randomly selected 8 to test the
documentation supporting the payments. The 8 selected HOs issued 1,357 of the
3,069 payments and accounted for $530,594 of the $1,158,466 spent.


                      Hearing Office Selected              Rank Among HOs
                  Bronx, New York                                1
                  Detroit, Michigan                              19
                  Fresno, California                             4
                  Los Angeles (Downtown),
                  California                                        8
                  Los Angeles (West), California                    5
                  Miami, Florida                                    18
                  Newark, New Jersey                                2
                  Queens, New York                                  13

From each of the eight HOs, we randomly selected eight of that office's payments
resulting in a sample of 64 payments totaling $42,646. See tables B-1 and B-2 for our
sample results and projections.

Every timesheet linked to a sample payment was reviewed for specific errors. If any of
the timesheets supporting a payment contained at least one of these errors, then we
declared that payment to have erroneous support. For each payment with at least one
erroneous timesheet, we then accumulated the dollar value of each timesheet in error
for projection purposes.



Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                      B-1
The 64 payments were supported by 296 timesheets. These timesheets contained one
or more claimant name and related Social Security number (SSN) for whom the service
was rendered. The 296 timesheets contained 330 claimant names and SSNs. We
selected a random sample of 100 claims folders and reviewed the first 30 we received.

                         Table B-1: Sample Population Description

                          Number of                        Secondary      Number          Sample
                          Payments         Payment          Sample          of           Payment
        Stratum           In FY 1999       Amount             Size      Timesheets       Amounts
 Bronx, New York                53          $128,474            8           115          $21,356
 Detroit, Michigan              31            30,596            8            36             5,500
 Fresno, California           382             68,312            8            15             1,200
 Los Angeles
 (Downtown),                   201             61,711           8               20          1,725
 California
 Los Angeles (West),           244             67,736           8               16          1,592
 California
 Miami, Florida                 99            33,350            8            20             2,397
 Newark, New Jersey             96            97,598            8            55             6,741
 Queens, New York              251            42,817            8            19             2,135
 Total for 8 HOs             1,357          $530,594           64           296           $42,646

                        Table B-2: Sample Results and Projections

                                                  Sample                             Projection of
           Stratum                Sample        Items with        Payments           Payments Not
                                   Size            Errors       Not Supported         Supported
  Bronx, New York                     8              8                 $5,980            $39,618
  Detroit, Michigan                   8              8                  5,500             21,313
  Fresno, California                  8              8                  1,200             57,300
  Los Angeles (Downtown),
  California                          8              0                     0                   0
  Los Angeles (West),                 8              0                     0                   0
  California
  Miami, Florida                      8              3                    417              5,167
  Newark, New Jersey                  8              6                  2,429             29,151
  Queens, New York                    8              4                    615             19,296
  Total for Sample                   64             37                 $16,141          $171,845
                                                          Projection to 21 HOs          $451,089
                                                         Projected Lower Limit          $250,377
                                                         Projected Upper Limit          $651,802




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                                  B-2
                                                                    Appendix C


Agency Comments





Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)
                                             SOCIAL      SECURI1Y

MEMORANDUM


           July   11,2001                                                          Refer To: S 11-3


To:        JamesG. Ruse, Jr.
           Inspector General
                                         I
                                     I
           Larry G. Massanari
           Acting Commission     j
            of Social Security

Subject:   Office of the InspectQrGeneral (OIG) Draft Report, "Internal Controls Over the Office of
           Hearings and Appeais Interpreter Services"(A-12-00-l0023)-INFORMATION


           We appreciatethe GIG's efforts in evaluating the internal controls over the Office ofHearings
           and Appeals' interpreter services. Our commentson the draft report and the specific
           recommendationsare attached.

           Staff questionsconcerning our commentsmay be referred to Robert Berzanski on extension
           52675.

           Attachments:
           SSA Comments
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "INTERNAL CONTROLS OVER THE OFFICE OF HEARINGS AND
APPEALS INTERPRETER SERVICES" (A-12-00-10023)

We appreciate the OIG’s efforts in conducting this review and the opportunity to comment on
the draft report. An Office of Hearings and Appeals’ (OHA) workgroup was recently
established to address improvements in services to those individuals with limited English
language skills. The workgroup’s agenda focuses on the need to develop an implementation
plan identifying strategies and timeframes for securing uniform hearing office (HO)
compliance with procedures governing interpreter services. The recommendations contained
in this report will be addressed by the workgroup. We expect the workgroup to submit their
implementation plan by October 2001.

Following are our comments on the recommendations.

Recommendation 1

Standardize HO procedures to ensure that all payments are fully supported by adequate
documentation to include: a) a record of the foreign language in which the interpreter's service
was rendered; b) the claimant's name; c) the claimant's social security number; d) the interpreter's
signature; e) a record of the hours worked and/or date and time the hearing was held; and f) a
signature from a presiding OHA official who authorized the hours worked.

Comment

We agree. We are developing a preformatted timesheet to capture the required information.
The timesheet should be released by August 31, 2001. It will be distributed by electronic
message to all OHA employees and placed on OHA’s Document Generation System for
electronic retrieval in the HOs.

Recommendation 2

Instruct HOs to require current and comprehensive fee agreements from each vendor to validate
the accuracy of invoices before payments are made.

Comment

We agree. The workgroup described above will determine whether:
•	 vendors should be required to submit new fee agreements or under what circumstances new
   agreements should be obtained (e.g., in response to a change in the vendor’s interpretation
   rates);
•	 OHA should attempt to seek nationwide or regionwide controls on interpretation rates,
   though we suspect that large vendors may exert undue influence in the establishment of
   going rates for interpretation services; and
• HOs or the regional office should approve fee agreements.



Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                               C-2
Recommendation 3

Establish procedures in Hearings, Appeals and Litigation Law Manual (HALLEX) similar to
SSA's existing procedures for screening interpreters, confirming their identities, and assessing
their background and qualifications prior to hiring and assigning interpreters.

Comment

SSA agrees that tightening of controls over the selection of interpreters and proof of their
identities is warranted. However, we question whether the recommendation to follow field
office procedures for selecting paid interpreters from non-SSA sources is a sufficient remedy for
the report’s described weaknesses in interpreter selection and identification procedures at the
hearing level. In this regard, the draft report discussed only interpreters hired by HOs and stated
that most of the hired interpreters are commercial vendors. However, OIG acknowledged in the
report that it did not have information concerning the number of hearings involving the use of
unpaid interpreters.

Since OHA does not currently collect data on interpreter services, we are unable to establish with
any precision the relative proportions of unpaid and paid interpreter services. Nonetheless, we
believe that a significant percentage of interpreters at hearings are unpaid individuals,
particularly at hearing sites remote to the servicing HO.

We believe that though it may be wise to use current field office interpreter procedures for
selection of paid non-SSA interpreters, much also remains to be done to tighten controls over the
selection of unpaid interpreters. These considerations will be studied by the workgroup
described above.

Recommendation 4

Expand the Office of Quality Assurance and Performance Assessment's Disability Hearings
Quality Review Process to include an assessment of the accuracy of the interpreter's
performance.

Comment

We do not concur. Current program priorities and budgeting resources preclude this additional
workload in the Office of Quality Assurance and Performance Assessment. However, the
workgroup described above will explore how OHA might devise a program to evaluate
interpreter services.

Recommendation 5

Remind all Administrative Law Judges (ALJ) to fully administer the oath to interpreters.




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                                  C-3
Comment

We agree and will issue a reminder to all ALJs to administer interpreter oaths fully. The
proposed reminder item language will set out the statutory and HALLEX standards governing
oath administration. The reminder item will be sent electronically as an administrative message
by August 31, 2001.

Recommendation 6

Instruct HOs to ensure that interpreters translate and certify all foreign language documents
submitted as evidence for the claimant's appeal.

Comment

We agree and plan to issue a reminder to HOs to ensure that interpreters comply with HALLEX
procedures governing the translation of foreign language documents. The reminder item will be
sent as an administrative message by August 31, 2001.




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)                               C-4
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

    Michael Maloney, Deputy Director, (703) 578-8844

Acknowledgments
In addition to the persons named above:

    Mary Ann Braycich, Program Analyst


For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-12-00-10023.




Internal Controls Over OHA’s Interpreter Services (A-12-00-10023)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
